May 13, 2011

DREW T. ALIPERTO
VICE PRESIDENT, OPERATIONS, PACIFIC AREA

SUBJECT: Audit Report – Facility Optimization: Pacific Area Districts
        (Report Number DA-AR-11-006)

This report presents the results of our audit of facility optimization in the Pacific Area
(Project Number 11YG008DA000). The U.S. Postal Service Office of Inspector General
(OIG) initiated this audit from a random sample of districts nationwide. For the Pacific
Area, our objective was to identify opportunities to optimize existing real estate in the
Bay Valley and Los Angeles Districts. See Appendix A for additional information about
this audit.

The Pacific Area uses 365 facilities with 7,651,122 interior square feet (SF) in the
two districts noted previously. Although the area employs these facilities, it has
experienced a significant reduction in workload in recent years. From fiscal years (FYs)
2005 to 2010, mail volume in the Pacific Area has dropped 18 percent. Likewise, mail
volume in the Bay Valley and Los Angeles Districts has decreased by 34 percent and
36 percent, respectively. This reduction in workload provides an opportunity to
reevaluate space needs and identify potential excess space.

Conclusion

The districts analyzed in the Pacific Area have more than 1.7 million SF in excess of
what their workload suggests they need. The U.S. Postal Service has the option to
optimize excess real property through;

   Disposal – selling property.
   Outleasing – leasing owned property.
   Subleasing/Reassignment – reassigning leased property.
   Development – investing in real estate projects.

With two major efforts underway, the Postal Service has begun taking action to optimize
existing space. Specifically, the Pacific Area plans to dispose of 305,015 SF of this
excess through approved optimization projects, with another 49,636 SF scheduled for
evaluation in FY 2011 for the two districts selected for our review. Although it has made
progress, the Postal Service can do more to dispose of excess interior space more
quickly.
Facility Optimization: Pacific Area Districts                                                           DA-AR-11-006



The opportunity to optimize excess interior space in the reviewed districts exists,
because:

   Postal Service policy requires installation heads to report excess space, but does
    not provide the necessary guidance to effectively accomplish this task.
   The excess space reporting system does not track metrics, such as dates or space
    conditions to allow for prioritizing disposal actions.

We estimate that if the Pacific Area initiates disposal1 action for the excess space we
identified, there is an opportunity to realize $172,248,8222 over typical and remaining
lease terms. We consider this amount to be funds put to better use.3 See Appendix B
for our detailed analysis of this topic and Appendix C for our calculation of monetary
impact.

Our audit also noted that the Postal Service could be more aggressive in seeking
opportunities to fill the space needs of federal entities. In the districts reviewed, our
analysis shows that excess space identified at Postal Service facilities may be able to
accommodate 84 percent of current federal agencies’ space needs. This opportunity
exists because the Postal Service has not capitalized on the priority status it has for
filling federal agencies’ space needs. By capitalizing on this status, the Postal Service
has another option for reducing its facility infrastructure size and generating additional
revenue. See Appendix D for more information.

We recommend the vice president, Operations, Pacific Area, district managers, area
managers, and the Pacific Facility Service Office manager work in coordination to:

1. Clarify procedures for reporting excess space.

2. Initiate disposal actions for excess space identified.

3. Pursue opportunities with federal agencies as an option to optimize excess property.




1
  Disposal actions available include sale, termination of lease, consolidation, and/or subleasing. At a minimum, the
Postal Service can out-lease or initiate a sublet action for owned or leased property, respectively.
2
  The annualized savings is $17,224,882.
3
  Funds that could be used more efficiently by implementing recommended actions. This amount does not include
excess SF that is part of an approved node study.



                                                           2
Facility Optimization: Pacific Area Districts                                      DA-AR-11-006



Management’s Comments

Management agreed with our recommendations. They stated they have put in place
corrective actions to address the first two recommendations and will complete corrective
action to address the third recommendation by the end of Q3, FY 2011. While
management agreed with our recommendations, management did not agree with the
amount of excess space or the potential monetary impact reported. Specifically, they
disagreed with the method we used to calculate existing excess space, in addition to the
data and cost factors used to value the excess space and calculate the monetary
impact.

In reference to the level of excess space reported, management conveyed that our
methodology does not include allowances for:

    1. Unusable space such as basements and corridors. The audit treats every square
       foot as usable and leasable.

    2. Unique operational functions not included in standard designs, such as
       administrative, district office, training, caller service, etc.
 
    3. Inefficiencies in current building layout due to multiple floors, stairs, elevators,
       columns, redundant support space required on each floor due to code
       requirements.
 
    4. Historic property.
 
    5. Parking and dock space requirements.
 
    6. Large inflexible retail lobbies.
 
    7. Automation support and traffic conditions.

In reference to the data and cost factors used in our calculations, management
disagreed with the findings in general as stated in responses to prior audits.
Management specifically disagreed with the average build-out cost used in our
calculations, citing a range of costs they deem reasonable based on actual project
costs.

As such, management believes the accurate way to calculate monetary impact is by
multiplying useable excess space by sublease value less conversion cost. This
calculated outcome should then be adjusted for maintenance and utility savings.

Finally, management expressed the challenges facing the Postal Service when
disposing property in poor market conditions and actions they have already taken to
reduce excess property. In particular, management has focused its attention on
properties that have more than 10,000 interior square feet, which represents 16 percent
of buildings and 76 percent of interior square feet. This allows the Postal Service to


                                                3
Facility Optimization: Pacific Area Districts                                    DA-AR-11-006



capture the largest opportunities for excess space that is usable. See Appendix E for
management’s comments in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations, and
management’s corrective actions should resolve the issues identified in the report. With
respect to the methodology used to calculate excess space, we did not determine
whether the excess space identified was usable, in part because Postal Service
systems do not identify usable areas. We agree that realty management policies and
systems need to be updated to define usable areas. According to commercial realty
standards, 4 usable areas are generally measured from “paint to paint” inside the
permanent walls to the middle of partitions. No deductions are made for columns and
projections necessary to the building. Our calculations reflect these standards.

As it relates to the usability of basements, we note that Postal Service Headquarters
and many federal agency buildings use basement space. According to commercial
realty standards, basement space is counted as usable and leasable areas. Mechanical
rooms are considered common areas that a proportionate share is allocated to a
tenant’s area. We did not include allowances for existing functions, building layout
inefficiencies, and inflexible spaces, because the Postal Service’s current space
standards did not specify these allowances. Our audit focused on interior excess space,
and thus, enclosed parking and dock spaces, automation support, and traffic conditions
were outside the scope of the audit.

Management also conveyed that we did not consider the historic nature of buildings and
the challenges or costs associated with making changes to these buildings. Although
we agree that there are properties of the Postal Service that are historic in nature, we
do not feel this has a large impact in the presentation of our results. The number of
eligible historic buildings listed in the Postal Service’s systems account for less than 1
percent of their properties. Also, while the Postal Service is required to consult with
historical organizations, they are not bound by these consultations or decisions.

The standard building design matrix served as the basis for determining earned space.
During the on-site visits, we inquired whether there were unique operations conducted
at the facility, such as bulk mail entry units or delivery bar code sorters, and allotted the
necessary space for those functions. Additionally, we applied the non-Flats Sequencing
System (FSS) rate of 123 SF per route to determine the earned delivery space, rather
than the post-FSS rate of 95 SF per route. Lastly, we did not consider performance
measures such as street efficiency indicator or alternate access sales in the earned
space calculation.

The Postal Service does not have a methodology of determining “build-out” costs at a
national, area, or district level. As such, to determine build-out cost, we used the
average build-out costs for the area as presented in its node studies. We note that
4
    www.boma.org



                                                4
Facility Optimization: Pacific Area Districts                                      DA-AR-11-006



build-out costs are negotiable and lessees, at times, absorb the cost of conversion. We
built in several different tolerances relating to the size of excess space at sites reviewed
and considered the marketability of properties within the district. Further, the multiple
actions, such as lease terminations, disposals, and space/lease reductions, within the
approved node studies were acknowledged and reflected in our monetary impact
calculations. We recognized realty market conditions and discounted our excess space
calculations by the national commercial vacancy rate of 14 percent. Therefore, we
consider our presentation of monetary impact as fair and conservative.

Finally, we recognize the efforts made to optimize Postal Service real estate and
management’s attention to properties greater than 10,000 SF. We believe that once
management modernizes its realty management systems to have greater visibility of
excess space, it will be able to better prioritize disposal actions associated with its full
building inventory.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure; consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Miguel A. Castillo, director,
Engineering and Facilities, or me at 703-248-2100.

      E-Signed by Mark Duda
   VERIFY authenticity with e-Sign




Mark W. Duda
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc:     Megan J. Brennan
        Tom A. Samra
        Kim R. Fernandez
        Eduardo H. Ruiz, Jr
        Corporate Audit and Response Management




                                                5
Facility Optimization: Pacific Area Districts                                     DA-AR-11-006



                               APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Pacific Area leases or owns 365 facilities with more than 7 million interior SF to
move mail in the Bay Valley and Los Angeles districts. The consolidation or closure of
facilities is a widely discussed topic due to declining mail volume and the resulting
financial condition of the Postal Service. In response, the Postal Service’s Facilities and
Retail Management organizations have implemented initiatives to optimize space,
namely, the initiation of the Facility Optimization Program and the Station and Branch
Optimization Consolidation (SBOC) program.

In April 2008, the vice president of Facilities initiated the Facility Optimization Program
to balance the portfolio of existing delivery facilities with the Postal Service’s current and
projected space needs. The program’s objectives are to generate revenue and reduce
rent obligations and operational costs. The process entails identifying, investigating,
analyzing, and approving space before executing the approved optimization action. The
Pacific Area has four approved optimization studies in the Bay Valley District and seven
in the Los Angeles District.

Established in May 2009, the SBOC program provides tools and strategies to evaluate
the effectiveness of Postal Service retail placement in support of the Transformation
Plan’s goals of improved service and increased revenue. As of the February 26, 2010,
filing, management was considering the following facilities for closure: Kaiser Center,
Landscape, Mills College, Niles, Oakland Station B, Park Station, Richmond Station A in
the Bay Valley District, Federal Finance Station, Galleria Station, and the Hollywood
Pavilion Store in the Los Angeles District.

In addition to the ongoing node studies5 and SBOC program, both districts have taken
action to use space and provide alternative services by selling Hallmark cards in
existing lobby space in several facilities.

In October 2010, the Postal Service consolidated optimization efforts to manage
excess space. The goal is to manage the excess space portfolio for all space types in
one overall optimization effort. Currently, the Postal Service has a program in place to
optimize carrier delivery facilities through the use of node studies. However, the Postal
Service will now include mail processing plants, retail facilities, small delivery units,
administrative space, and carrier delivery facilities in one overall optimization effort.
This integrated effort between Facilities Headquarters and the field offices will use
computer modeling and equipment analysis along with local analysis and metro
planning to form headquarters and district/area partnerships.

To supplement and expand on existing Postal Service initiatives, the OIG developed a
Real Estate Risk Model to identify and prioritize emerging facility risk. The risk model
measures facility performance results by district for the following nine metrics in Table 1:
5
    Studies of consolidation for sites in a geographic radius.



                                                                 6
Facility Optimization: Pacific Area Districts                                                            DA-AR-11-006




Table 1 – Risk Metrics

                                        RERM Metrics
                                                Excess Postal Service Identified
    Ratio of Mail Volume to Interior SF
                                                Interior Space
    Ratio Revenue to Interior SF                Excess Land
    Ratio of Total Expense to Interior SF       Facility Condition
    Ratio of Employees to Interior SF           Density, Geographic Location
    Ratio of Retail Revenue to Total Expense

We randomly selected 17 districts to study excess interior space nationally; the two
districts selected were in the Pacific Area.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to identify opportunities for the Postal Service’s Pacific Area to optimize
existing real estate. We visited 102 of 365 facilities in the Bay-Valley and Los Angeles
districts, representing 33 percent of the OIG-calculated excess space when actual interior
space is compared to space standards. The scope of the audit primarily included main
post offices, carrier annexes, stations, branches, and mail processing facilities. To
accomplish our objective, we visited selected facilities, conducted interviews, and
examined other relevant materials.

To calculate an earned6 facility size, we compared the workload data from Postal Service
databases7 to the number of carrier routes, the number of rented post office box sections,
and peak window use. We based the earned facility size on Postal Service criteria8 for
planning new space projects, which differs from existing Postal Service initiatives9
because it focuses on the total facility size, not specific retail or delivery operations. We
calculated excess space by taking the difference between earned facility size and actual
interior square footage reported in the electronic Facilities Management System (eFMS).
For the plants, the local in-plant support provided us the excess space data which we
assessed for reasonableness.

We conducted this performance audit from December 2010 through May 2011 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
6
  We used Postal Service criteria established in March 2007, outlined in a letter issued by the senior vice president of
Operations. In support of this new criteria, the Headquarters Facility Group, Planning and Approval, designed
matrices to assist with the space requirements of planned facilities.
7
  WebBATS Monthly Summary Data for issued post office box information, Intelligent Mail and Address Quality
Delivery Statistics Summary for route information, and Retail Data Mart for earned peak modeled window staffing.
8
  Space Requirements Matrix for Non-Flat Sequencing System offices.
9
  SBOC and Facilities Optimization programs.



                                                           7
    Facility Optimization: Pacific Area Districts                                                 DA-AR-11-006



    our findings and conclusions based on our audit objective. We discussed our
    observations and conclusions with management on April 5, 2011, and included their
    comments where appropriate.

    We assessed the reliability of facility-related data by verifying the accuracy of computer-
    generated information through observations during facility tours and interviewing agency
    officials knowledgeable about the data. We determined that the data was sufficiently
    reliable for the purposes of this report.

    PRIOR AUDIT COVERAGE

    The following audit reports are relevant to the Postal Service’s facility infrastructure:

                       Report             Final Report        Monetary
 Report Title                                                                          Report Results
                       Number                 Date             Impact
Facility                                                                    The OIG identified 4.5 million SF of
Optimization:                                                               excess space. The Postal Service
                    DA-AR-11-001             2/7/2011        $173,835,881
Western Area                                                                agreed with the recommendations but
Districts                                                                   disagreed with the monetary impact.
Facility                                                                    The OIG identified 1.98 million SF of
Optimization:                                                               excess space. The Postal Service
                    DA-AR-10-008            8/25/2010        $157,963,990
Northern New                                                                agreed with recommendations but
Jersey District                                                             disagreed with the monetary impact.
Facility                                                                    The OIG identified 740,529 SF of
Optimization:                                                               excess space. The Postal Service
                    DA-AR-10-009            8/25/2010         $23,517,019
Chicago                                                                     agreed with recommendations but
District                                                                    disagreed with the monetary impact.
Facility                                                                    The OIG identified 2.4 million SF of
Optimization:                                                               excess space. The Postal Service
                    DA-AR-10-010            8/25/2010        $446,258,222
New York                                                                    agreed with recommendations but
District                                                                    disagreed with monetary impact.
                                                                            The Government Accountability Office
Restructuring                                                               (GAO) added the U.S. Postal
the U.S. Postal                                                             Service’s financial condition to the list
Service to                                                                  of high-risk areas needing Congress’
Achieve            GAO-09-937SP             7/28/2009           None        attention and the executive branch to
Sustainable                                                                 achieve broad-based transformation.
Financial                                                                   It recognized the need to reduce the
Viability                                                                   facility infrastructure. There was no
                                                                            Postal Service response in the report.
                                                                            Federal agencies have taken some
Federal Real                                                                positive steps to address real property
Property: An                                                                issues, but some of the core problems
Update on           GAO-09-801T             7/15/2009           None        that led to designation of this area as
High-Risk                                                                   high risk continue to persist. There
Issues                                                                      was no Postal Service response in the
                                                                            report.




                                                         8
    Facility Optimization: Pacific Area Districts                                            DA-AR-11-006




                       Report             Final Report       Monetary
 Report Title                                                                      Report Results
                       Number                 Date            Impact
                                                                        The Postal Service will require action
Network                                                                 in a number of areas; such as,
Rightsizing                                                             rightsizing its retail and mail
Needed to                                                               processing networks by consolidating
Help Keep           GAO-09-674T             5/20/2009         None      operations and closing unnecessary
USPS                                                                    facilities. The Postal Service generally
Financially                                                             agreed with the accuracy of the
Viable                                                                  statements and provided technical
                                                                        comments, which were incorporated.




                                                         9
Facility Optimization: Pacific Area Districts                                                            DA-AR-11-006




                                 APPENDIX B: DETAILED ANALYSIS

Excess Space is Significant in the Pacific Area

Based on facility space requirements,10 we calculated that the districts reviewed in the
Pacific Area maintain more than 1.7 million SF more than what is required for current
operational workload and thus can be considered potential excess space. As depicted
in Chart 1, excess space was 23 percent of the total interior square footage.

                     Chart 1 – Area Interior and Excess Space Comparison




The breakdown of interior square footage and OIG-calculated excess for the 102 visited
facilities in the Pacific Area is represented in Table 2. Main post offices contributed
52 percent of the excess space, while stations (23 percent), carrier annexes
(12 percent), and plants (7 percent) followed to a lesser degree.

                         Table 2 – Excess Space by Facility Type Visited
                              Facility                                              OIG-              Interior
          Facility                          Percentage         Percentage
                               Type                                              Calculated           Square
           Type                              of Count           of Excess
                              Count                                               Excess              Footage
    Main Post Office                 46              45%              52%            735,483           1,373,654
    Station                          29              28%              23%            323,844             918,611
    Carrier Annex                    13              13%              12%            162,215             318,405
    Plant                              4              4%               7%             95,291           1,484,230
    Finance Station                    6              6%               4%             52,724              75,824
    Branch                             4              4%               3%             36,828              74,028
    Total                           102             100%             100%          1,406,385           4,244,752


10
   We used Postal Service criteria established in March 2007 outlined in a letter issued by the senior vice president of
Operations. In support of this new criteria, the Headquarters Facility Group, Planning and Approval, designed
matrices to assist with the space requirements of planned facilities.



                                                          10
      Facility Optimization: Pacific Area Districts                                  DA-AR-11-006



      To highlight excess space in the Pacific Area, Illustration 1 depicts two facilities with
      excess interior space. The Alameda Main Post Office is a leased facility with delivery
      and retail operations and significant vacant space on the workroom floor. The Maywood
      Branch is a Postal Service-owned facility with retail operations and also maintains
      significant vacant space on the workroom floor. According to our calculations,
      94 percent of the sites visited contained excess space, ranging from 200 to 145,600 SF.

                            Illustration 1 – Examples of Excess Space
Alameda Main Post Office                         Maywood Branch
2201 Shoreline Dr                                4357 S Lauson Ave
Alameda, CA 94501                                Maywood, CA 90270
Interior Square Footage: 54,040                  Interior Square Footage: 24,382
OIG Calculated Excess SF: 37,940                 OIG Calculated Excess SF: 22,382




      Causes for Excess Interior Space

      The opportunity to optimize excess interior space in the Pacific Area exists, because—

         Postal Service policy requires installation heads to report excess space but does not
          provide the necessary guidance to effectively accomplish this task.
         Facility systems do not track metrics, such as dates or space conditions to allow
          effective management of excess space.

      Guidance Can Be Improved

      A review of the facility database user guide shows it does not provide sufficient
      guidance for identifying excess space using the workload-driven space requirements.
      For example, the facility database space survey asks installation heads to objectively
      answer “Do you have any vacant space in your facility that is in leasable condition and
      has access that does not compromise the security of the operation?” without providing
      further guidance or referencing space standards. Although we identified excess space
      at 96 of the 102 Postal Service facilities we visited, only two locations answered “yes” to



                                                      11
Facility Optimization: Pacific Area Districts                                   DA-AR-11-006



the vacant leasable space survey question. As a result, we identified more than 1.7
million of excess square footage in the Bay-Valley and Los Angeles districts.

Facility Systems Do Not Allow for Effective Management of Excess Space

The Postal Service is experiencing a considerable workload decline that has resulted in
significant excess space. However, the electronic system that manages facility space
does not collect or monitor metrics, such as whether length-of-time space is underused
or vacant and the condition of excess space to efficiently prioritize disposal actions.

For comparison purposes, we benchmarked Postal Service facility practices against the
General Services Administration’s (GSA) realty management practices and found that
GSA ‘ages’ its available space for tracking, monitoring, and decision-making. The Postal
Service does not have the ability to age excess space, as it does not collect dates on
entry.

GSA’s Public Buildings Service also manages its leased portfolio by focusing on four
primary areas: reducing vacancy, managing lease administration expenses, managing
customer requirements, and analyzing market trends. Similarly, GSA-owned facilities
are monitored and analyzed using performance metrics, such as revenue, funds from
operations, operating costs, vacancy, net operating income, and return on equity. The
Postal Service’s facility management systems are unable to manage property in this
manner. For example, rents from leases or subleases are tracked manually using
electronic spreadsheets.

Additionally, because the Postal Service’s eFMS calculates space based on delivery
and retail metrics, the excess space reported for processing and distribution plants is
inaccurate. Therefore, it is not a reliable source for identifying how much excess space
is available in its plants. The Postal Service plans to measure plants and update the
facility database. To complete this task, industrial engineers, working with local in-plant
support, are using blueprints to identify processing equipment, staging areas, and
manual work areas and identify excess space.

We estimate if the Pacific Area initiated disposal actions, there is a potential opportunity
to realize $172,248,82211 over typical and remaining lease terms. This amount is
considered funds that could be used more efficiently by implementing recommended
actions. See Appendix C for the monetary impact calculation and assumptions.




11
     The annualized savings would be $17,224,882.



                                                    12
     Facility Optimization: Pacific Area Districts                                                        DA-AR-11-006



     Opportunity to Fulfill Federal Space Needs

     GSA is the nation's largest public real estate organization. It provides workspace for
     more than 1 million federal workers through its Public Buildings Service. According to
     the Code of Federal Regulations (CFR), in situations when GSA-controlled space is not
     available, federal agencies must extend priority consideration to available space in
     Postal Service buildings.12

     Our audit noted that the Postal Service can be more aggressive in seeking opportunities
     to fill the space needs of federal entities. Table 3 illustrates the potential fulfillment
     opportunities in both districts reviewed in the Pacific Area. Specifically, it shows that
     GSA leases on behalf of federal entities primarily from the commercial sector rather
     than the Postal Service. Space requirements were greater than the excess space
     identified in Postal Service facilities. GSA paid considerably more per square foot than
     the value assigned to the Postal Service space.13

                        Table 3 – Postal Service Excess Space Lease Opportunity
                                                                    Existing                  Postal
                               Postal                   Postal                    GSA                      Number of GSA
                 GSA                         GSA                     GSA/                    Service
                               Service                  Service                  Averag                    Leases Excess
Districts       Leased                      Facility                 Postal                  Average
                               Excess                   Facility                  e SF                       Space May
                  SF                        Count                   Service                    SF
                                 SF                     Count                     Cost                     Accommodate
                                                                    Leases                    Value
Bay
                1,505,154       932,074           94         146             1    $34.34        $19.62        79 of 94    84%
Valley
Los
                1,381,309       850,737           81          97             0      33.07        23.61        68 of 81    84%
Angeles
Total           2,886,463     1,782,811          175         243             1    $33.71        $21.62     147 of 175     84%

     Table 3 and Appendix D also illustrate the strong correlation between space
     leased by the GSA and the ability of the Postal Service to significantly
     accommodate federal space needs. For the districts reviewed, we estimate that
     Postal Service excess space may accommodate 147 of 175 (or 84 percent) of
     current federal leases. However, we understand that more information is
     necessary to determine whether the Postal Service’s excess space would be
     suitable.




     12
          41 CFR 102-73.20.
     13
          We assigned Postal Service excess space a value based on historical lease rates in the same geographic areas.



                                                               13
     Facility Optimization: Pacific Area Districts                                                                              DA-AR-11-006



                                                                           APPENDIX C: MONETARY IMPACTS
                                                                             FUNDS PUT TO BETTER USE14

     Table 4 – Bay Valley Excess Interior Space Monetary Impacts

 
Project Year                                           0              1                2               3              4                    5              6               7             8          9
Fiscal Year                                        2012           2013             2014            2015            2016                2017           2018             2019         2020        2021
                                                                                                                             
Owned                                                                                                                        
Sublease Value                          ($21,893,826)       $14,313,791      $14,313,791    $14,313,791     $14,313,791          $14,313,791    $14,313,791     $14,313,791    $3,578,448 
Utility Savings                                              $2,101,107       $2,149,432     $2,198,869      $2,249,443           $2,301,180     $2,354,108      $2,408,252     $615,910 
Custodial Savings                                            $1,915,071       $1,915,071     $1,915,071      $1,915,071           $1,915,071     $1,915,071      $1,915,071     $478,768 
Leases Expiring FY 2011                                                                                                      
Sublease Value                              ($1,903,324)     $1,244,359       $1,244,359     $1,244,359      $1,244,359           $1,244,359 
Utility Savings                                               $182,658         $186,859         $191,157      $195,554             $200,051 
Custodial Savings                                             $166,485         $166,485         $166,485      $166,485             $166,485 
Leases Expiring After 10/1/2011                                                                                              
Sublease Value                              ($4,174,391)     $2,729,142       $1,673,213     $1,155,343       $840,011             $510,866       $436,270        $298,930       $49,050     $49,050  
Utility Savings                                               $400,608         $251,258         $177,483      $132,010               $82,130        $71,751         $50,294        $8,442     $8,636  
Custodial Savings                                             $365,138         $223,863         $154,576      $112,387               $68,350        $58,370         $39,995        $6,563     $6,563  
                                                                                                                             
Subtotal                                ($27,971,541)       $23,418,359      $22,124,332    $21,517,135     $21,169,111          $20,802,284    $19,149,360     $19,026,333    $4,737,181    $64,249  
Cash Flows @ Sublease Efficiency        ($24,251,326)       $20,303,717      $19,181,796    $18,655,356     $18,353,619          $18,035,580    $16,602,495     $16,495,831    $4,107,136    $55,704  
Rate 

Discounted at Postal Service Cost of    ($24,251,326)       $19,546,298      $17,777,357    $16,644,487     $15,764,404          $14,913,341    $13,216,217     $12,641,451    $3,030,057    $39,563  
Borrowing 
                                                                                 Net Present Value: $89,321,849

                                   Build-Out Costs SF                                  $30.01       Utilities Savings SF per Year                              $2.88
                                   Lease Savings SF per Year                           $19.62       Utility Cost Escalation Rate                               2.30%
                                   Postal Service Cost                                              Custodial Rate SF                                          $5.25
                                     of Borrowing                                      3.875%       Sublease Efficiency Rate                                   86.7%
                                                         Assumption:                  **Weighted Average Lease Years = 7.3
     14
          Funds the Postal Service could use more efficiently by implementing recommended actions.
                                                                                                  13
                                                                                        Restricted Information
Facility Optimization: Pacific Area Districts                                                                                DA-AR-11-006



Table 5 – Los Angeles Excess Interior Space Monetary Impacts

 
Project Year                                          0              1              2              3              4                  5              6              7             8           9
Fiscal Year                                        2012          2013           2014           2015            2016              2017           2018           2019          2020        2021
                                                                                                                         
Owned                                                                                                                    
Sublease Value                          ($23,189,253)      $14,801,251    $14,801,251    $14,801,251    $14,801,251     $14,801,251       $14,801,251    $14,801,251    $3,700,313 
Utility Savings                                             $1,172,314     $1,199,277     $1,226,861     $1,255,079         $1,283,945     $1,313,476     $1,343,686     $343,648 
Custodial Savings                                           $1,413,673     $1,413,673     $1,413,673     $1,413,673         $1,413,673     $1,413,673     $1,413,673     $353,418 
Leases Expiring FY 2011                                                                                                  
Sublease Value                              ($1,267,018)     $808,713       $808,713       $808,713       $808,713           $808,713 
Utility Savings                                                $64,053        $65,526        $67,033        $68,575           $70,152 
Custodial Savings                                              $77,241        $77,241        $77,241        $77,241           $77,241 
Leases Expiring After 10/1/2011                                                                                          
Sublease Value                              ($7,012,490)    $4,475,937     $3,493,713     $2,086,416     $1,441,367          $874,703       $381,467       $209,421      $209,421     $209,421 
Utility Savings                                              $354,511       $283,080       $172,941       $122,221            $75,877         $33,852        $19,012      $19,449      $19,896 
Custodial Savings                                            $427,498       $333,686       $199,274       $137,665            $83,543         $36,434        $20,002      $20,002      $20,002 
                                                                                                                         
Subtotal                                ($31,468,762)      $23,595,191    $22,476,160    $20,853,403    $20,125,785     $19,489,099       $17,980,152    $17,807,044    $4,646,250    $249,319 
Cash Flows @ Sublease Efficiency        ($27,283,416)      $20,457,030    $19,486,831    $18,079,900    $17,449,056     $16,897,049       $15,588,792    $15,438,707    $4,028,299    $216,159 
Rate 
Discounted at Postal Service Cost of    ($27,283,416)      $19,693,892    $18,060,058    $16,131,060    $14,987,451     $13,971,906       $12,409,270    $11,831,333    $2,971,894    $153,523 
Borrowing 



                                                                           Net Present Value: $82,926,973

                           Build-Out Costs SF                $36.99        Utilities Savings SF per Year                                                     $1.87
                           Lease Savings SF per Year         $23.61        Utility Cost Escalation Rate                                                      2.30%
                           Postal Service Cost                             Custodial Rate SF                                                                 $4.51
                             of Borrowing                    3.875%        Sublease Efficiency Rate                                                          86.7%
                                                Assumption: **Weighted Average Lease Years = 7.3




                                                                                              14
                                                                                    Restricted Information
Facility Optimization: Pacific Area Districts                                                          DA-AR-11-006



Value Assigned to the Excess Space

Table 6 shows the value per square foot for each district. Using the Facility Inventory
Reports from the eFMS, we calculated this figure by dividing total interior square
footage by total lease costs.

Utility Costs Associated with the Excess Space

Table 6 shows the utility cost per square foot for each district. Using the information
from line 42 of the Financial Performance Report (FPR), we calculated this figure by
dividing the total annual utility expenses by the district’s total interior square footage,
with a cost escalation rate of 2.3 percent.

Maintenance Costs Associated with the Excess Space

Table 6 shows the maintenance cost per square foot for each district. We calculated this
cost by dividing the total annual maintenance expenses15 by the district’s total interior
square footage. However, we reduced the cost by 50 percent, based on previously
identified savings in a custodial maintenance audit.16

Build-Out Costs Associated with Implementing Optimization Actions

Table 6 shows the build-out cost per square foot for each district. We calculated this
figure by dividing the ‘build-out/Line 63 capital’ costs for all approved optimization node
studies in each district by the total reduction in square footage identified in the approved
node studies.

For both districts, we calculated the average build-out cost and then removed any
’outliers,’ such as items with no build-out cost or items whose build-out cost per square
foot was not in keeping with the emerging range of costs to generate a new build-out
cost. However, in the Bay-Valley District, there were not enough node studies with
build-out costs to be considered representative of the district. In these cases, we
calculated the build-out cost per square foot for the entire Pacific Area, which is $30.01.
We calculated this figure using the same methodology as the district cost but expanded
the scope to include node studies for all districts in the Pacific Area.

                        Table 6 – Square Footage Costs by District
                               Lease       Utility  Maintenance Build-Out
               District
                             Cost/SF      Cost/SF     Cost/SF      Cost/SF17
            Bay-Valley           $19.62       $2.88        $5.25     $30.01
            Los Angeles          $23.61       $1.87        $4.51     $36.99


15
   eFlash (Labor Distribution Code 38, salary and benefits) + FPR Line 3F Contract Cleaners Costs.
16
   Custodial Maintenance (Report Number DA-AR-09-011, dated August 13, 2009).
17
   Although build-out costs are negotiable and, at times, paid for by the lessor, these costs ranged from $0 per square
foot to $139.73 per square foot in the node studies analyzed.
                                                          15
                                                Restricted Information
Facility Optimization: Pacific Area Districts                               DA-AR-11-006



Ownership of Facility and Term Years

We categorized all facilities in the district by ownership – leased vs.
Postal Service-owned. We further grouped the leased properties by the number of term
years remaining on the lease.

We calculated leases expiring before the end of FY 2011 based on the assumption that
these leases would be renewed for the standard 5-year period. We calculated leases
expiring after October 1, 2011, for the remaining lease term. We calculated
Postal Service-owned facilities over a period of 7.3 years, which was the historical
national average lease term.

Sublease Efficiency Rate

We identified the national commercial property vacancy rate from the National Realty
Association for industrial and retail space as 13.3 percent, so we reduced the net
present value savings realization to an 86.7 percent ‘success rate.’




                                                16
Facility Optimization: Pacific Area Districts                                              DA-AR-11-006



                APPENDIX D: GSA-LEASED PROPERTIES COMPARED TO
                         POSTAL SERVICE EXCESS SPACE

Map 1 – Bay Valley District




Table 7 – Facilities by Square Footage

                   GSA             OIG                 Illustration 2 shows the ratio of Postal Service
 Building                                           excess space to GSA-leased commercial space.
                  Leased        Identified
 Size (SF)                                         Table 7 provides additional analysis by placing the
                 Facilities      Excess
                                                     real estate into size categories to further assess
    1,000              3             36
                                                                                   supply vs. demand.
    5,000             21            50
   10,000             30             33                       Illustration 2. Ratio of Excess Space to
   20,000             21            17                                      Leased Commercial Space
   30,000              6              4
   40,000              2              4
   50,000              4              1
    More               7              1
    Total             94            146




                                                          17
                                                Restricted Information
Facility Optimization: Pacific Area Districts                                   DA-AR-11-006



Map 2 – Los Angeles District




Illustration 3 shows the ratio of Postal Service excess space to GSA-leased commercial
space. The following table provides additional analysis by placing the real estate into
size categories to further assess supply vs. demand.

                                                     Illustration 3 – Ratio of Excess Space
                                                               to Leased Commercial Space


Table 8 – Facilities by Square Footage

                    GSA             OIG
 Building
                   Leased        Identified
 Size (SF)
                  Facilities      Excess
    1,000               2              8
    5,000              18             41
   10,000              22             22
   20,000              23             18
   30,000               5              5
   40,000               3              2
   50,000               3              0
    More                5              1
    Total              81             97



                                                18
Facility Optimization: Pacific Area Districts                            DA-AR-11-006



                          APPENDIX E: MANAGEMENT’S COMMENTS




                                                          19
                                                Restricted Information
Facility Optimization: Pacific Area Districts        DA-AR-11-006




                                                20
Facility Optimization: Pacific Area Districts                            DA-AR-11-006




                                                          21
                                                Restricted Information
Facility Optimization: Pacific Area Districts        DA-AR-11-006




                                                22
Facility Optimization: Pacific Area Districts        DA-AR-11-006




                                                23
Facility Optimization: Pacific Area Districts        DA-AR-11-006




                                                24
